U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 3, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Albert T. Robles v. United States of America, No. 19-912
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 17,
2020. The government’s response is now due, after one extension, on April 8, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 10, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personal responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0912
ROBLES, ALBERT T.
USA

ERIK S. JAFFE
SCHAERR | JAFFE LLP
1717 K STREET, NW
SUITE 900
WASHINGTON , DC 20006
202-787-1060
EJAFFE@SCHAERR-JAFFE.COM

